APPENDIX

B

IN THE SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT

COMMONWEALTH OF PENNSYLVANIA,

No. 9 WM 2020

Respondent
v.

RICHARD HOLLIHAN, JR.,
Petitioner

ORDER

PER CURIAM
AND NOW, this 22nd day of June, 2020, the Motion for Reconsideration is
DENIED.

A True Copy Patricia Nicola
As Of 06/22/2020

Attest: __________________
Chief ClerR
Supreme Court of Pennsylvania

APPENDIX

A

IN THE SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT

COMMONWEALTH OF PENNSYLVANIA,

No. 9 WM 2020

Respondent

v.

RICHARD HOLLIHAN, JR.
Petitioner

ORDER

PER CURIAM
AND NOW, this 22nd day of May, 2020, the “King’s Bench Matters Application for
Extraordinary Relief is DENIED.

V

I '

A True Copy Patricia Nicola
As Of 05/22/2020

Attest:._,________________
Chief ClerK
Supreme Court of Pennsylvania

IN THE SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT

COMMONWEALTH OF PENNSYLVANIA

)
)
)

Respondent
V.

)

RICHARD HOLLIHAN JR.

)
)

Petitioner

No. 9 WM 2020
Lower Appellate Court
Docket No. Trial Court
CP-02-CR-0003016-1985

MOTION FOR RECONSIDERATION FROM THE ORDER IN THE
"KING'S BENCH MATTERS APPLICATION FOR EXTRAORDINARY RELIEF
DATED MAY 22nd,2020

II

NOW COMES,Richard Hollihan Jr.,AJ-0676 Pro SE seeking Relief
files the above MOTION to havei this Honorable Pennsylvania
Supreme Court address a reason why Petitioner's Equal Protection
which was stated in His King Bench Petition page 4. last Page,
paragraph 15, Exhibit B. Commonwealth v. Stallone 281 Pa.41;
126 A.56;1924 Pa. LEXIS 565 No. 347 May 12,1924. Argued July 8,
1924 , was not addressed by this Honorable Pennsylvania Supreme
Court When, it involves a firing of a weapon in the Lower Court
during a murder Trial in 1924?
1. Petitioner being a Pro Se person acting as his own Attor­
ney states that without a reason why my King's Bench Petition
was denied when he was trying to show the PA. Supreme Court that
Stallone's Case joins together with my case, we both had a
weapon fired in our trials, but I did not get Justice, Mr.
Stallone did from the Pennsylvania Supreme Court.
Due Process and Equal Protection

which is our Constitution

14th Amendment and the right to have a fair Trial was violated
in my case by the actions of Judge James R. McGregor, my trial
1.

Judge in 1986. My trial Judge has died in 2010.
He allowed the Court's expert witness to demonstrate the firing
of a 12 gauge shotgun to be fired and asked the jury whether
they would permit it.
The same thing happen in Stallone's case, our cases are
identical. So equal Justice should apply to me as well as Mr.
Stallone cases. He received a New Trial, why can't I have a New
Trial and Protection under the equal protection of Law?

2. I am receiving Blind Justice in my case by not addressing
this very important Issue, the firing of the weapon in open
Court during my trial. The Pennsylvania Supreme Court that I
know, don't give a blind eye on Justice to one of their cases
because its in the Law Books under Commonwealth v. Stallone.
Why can Mr. Stallone get Justice and a New Trial and NOT I?
3. THe firing of the 12 gauge shotgun was a frightful Demonstration
for the jury to see and hear and for my 4 little daughters who
were at trial, there was uncontrollable crying of my little
daughters and jury members, which a recess had to be taken,this
isn't a trial, its a malicious prosecution.
Wherefore, for the foregoing reasons, I, Richard Hoilihan Jr.
request that my MOTION For Reconsideration of firing a weapon
during my trial be Granted so I can receive Justice just like
Mr. Stallone had, and Grant New Trial.
I declare that the foregoing is true and correct pursuant to
18.Pa. C.S. § 4904.
Respectfully submitted,
DATED:
Richard Hoilihan Jr. ,AJ-0*676 Pro Se
1600 Walters Mill Road

BB-34

Somerset, Pennsylvania
1 551 0
2.

IN THE SUPREME COURT OF PENNSYLVANIA

COMMONWEALTH OF PENNSYLVANIA

)

V.
RICHARD HOLLIHAN JR.

)

C.C. 8503016

)

NOW KNOWN AS

)

CP-02-CR-0003016-1985

)
)

KING’S BENCH MATTERS
APPLICATION FOR EXTRAORDINARY RELIEF
PURSUANT TO PA.R.A.P.,RULE 3309 AND 42 PA. C.S. 726

I, Richard Hollihan Jr.,Pro Se Petitioner in the above
captioned case requests An Application For Extraordinary Relief '
from a Final Order and avers:
History of Case:
1.

On March 8,1985^was falsely arrested for the shooting of
his Wife, Janet Hollihan and taken to the Old Allegheny
County Jail and placed in the mental health unit.

2.

On March 15,1985, the Coroner Office held an inquest I
was held for Trial. And on March 21,1985 was given a low
bail bond of $25,000.00 (Twenty Five Thousand dollars) at
10%.

3 -.' On January 28,1986,the trial started, and on February 4,
1986 following a jury trial, I was convicted of murder of
the First Degree, in the shooting death of my wife,Janet.
4.

On September 28,1989, after Post Verdict Motions and
direct appeal matters, the Superior Court affirmed the
judgment of sentence of life in prison, and on July 3,
199:1, the Pennsylvania Supreme Court denied my Petition
for Allowance of Appeal.
1.

r\

SEE COMMONWEALTH V. HOLLIHAN, 566 A.2d 254 (Pa. Super.
1989), Appeal DENIED, 593 A.2d 838 (Pa.1991).

5.

On June 10,1 993,' I filed my very first PCRA Petition.
Pro Se. The Court gave me an appointed counsel who filed
a Petition to Withdraw and presented a NO-Mert letter
COMMONWEALTH V. TURNER, 544 A.2d 927 (Pa. 1988);COMMWONWEALTH V. FINLEY, 550 A.2d 213

Pa. Super. 1988).

On July 23,1996, the PCRA Court granted counsel's Petit­
ion to Withdraw and Dismissed the PCRA Petition.
6.

Now, in between the years that followed petitioner? a^as
looking for case law to support his actual innocence
such as firing the weapon in open Court, NO luck.

7.

So on October 31, 2007, I filed, Pro Se a 2nd PCRA Petit­
ion. On November 20, 2007, the PCRA Court filed a Pa.
R.Crim.P. 907 Notice of INtent to Dismiss. AND on December
12, 2007, the PCRA Court dismissed my Petition, which
the Superior Court Affirmed. COMMONWEALTH V. HOLLIHAN,963
A.2d 567 (Pa. Super. 2008) (unpublished memorandum),
Appeal denied, 967 A.2d 958 (Pa.2009),Cert.denied, 577
U.S. 926 (2009).

8.

On March 13,2014, I filed a Third Pro Se PCRA Petition.
After filing a Pa.R.Crim.P. 907 Notice of intent to Dismiss,
the PCRA COURT Dismissed the Petition without a. hearing
on January 8,2015.

9.

On July 13,2017, I filed a MOTION FOR MEDICAL EXAMINER'S
AUTOPSY REPORT, which the PCRA Court treated as my 4th
PCRA Petition. The PCRA Court Denied the Petition. I
filed a-NOTICE OF APPEAL in time. After a back and forth
battle with the Court telling the PCRA Court this is a
MOTION, not a
Petition. On May 9,2018, Superior
2.

Court STATED THAT THE PCRA is facially untimely
because it was filed on July 13,2017. On May 9,2018
Judgment Entered SEE; Superior Court Number 1321 WDA
2017.

10.

On October 1st,2018, I filed a Petition For Writ of
Mandamus to prove my innocence.

11.

On December 7,2018, the PCRA Court sent a Notice To
Dismiss.

12.

On January 2nd,2019, I sent a Notice of Appeal, I
then proceeded to file a Motion to Recuse the PCRA
Judge from my case. I then received an ORDER Denying
my Recusal Motion on February 8,2019, and in March
on the, 14th, I received an ORDER Denying Post Con­
viction Relief Act Petition.
ORDER DATED MARCH 14,2019.by Judge O'Toole.
SEE: Exhibit D.Docket provided by the Court. 1 Page.

13.

On or about I wrote a letter dated December 6,2018 asking•
if the University of Pittsburgh School of Law could do
a search for any case law in Pennsylvania where a weapon
or shotgun was fired during a trial in front of a jury.
I received their letter on January8th,2019. Note here:
Legal's and any Court mails are being sent to Florida's
Security Processing.) SEE: Enclosed Exhibit A.3 pages.

14.

Over the years, I have tried to get Law where a weapon
was discharged in a Courtroom from the Law Library and
from Attornies whom I have written to in the past and
no answer. I tried to obtain cases in other States, did
not get no response.,Then this year in December 2019,
3.

15. Due to a;new Librarian and someone who knows, I went to
our prison Law Library here in SCI-Somerset like I
periodically do and a newly hired law clerk did a sedrch
and brought up a case SEE: Exhibit B. 5 Pages.
This Case is a Supreme Court case held 96 years ago which
like my case a weapon was fired in the Court and the man
received a First Degree Murder Conviction. COMMONWEALTH V.
STALLONE, 281 Pa. 41; 126 A.56; 1924 Pa. LEXIS 565 NO. 347
May 12, 1924, Argued July 8,1924. This Case Granted Stallone
a NEW TRIAL. SEE: EXHIBIT B. 5 Pages.
16. Petitioner Hollihan incorporates the Dissenting Opinion
of Superior Court Judge Montgomery dated September 28,1989
where he said I am entitled to a New TEial in my direct
appeal to Superior Court. And on the back of page 2 of
Judge Montgomery's statement to vacate the judgment is a
drawing of the weapon that my wife used to commit suicide
with on March 8,1985. SEE: Exhibit C. 3 Pages.

WHEREFORE, for the foregoing reasons, Petitioner Hollihan
request that the said Application For Extraordinary Relief
be Granted and Petitioner's conviction be reversed and a
New Trial Granted, or Grant such other relief as it may
appear that Petitioner Hollihan is entitled in the Interest
Of Justice.
I declare that the foregoing is true and correct
pursuant to 18 Pa. C.S.§ 4904.
Respectfully submitted,
DATED:

.-7

3

/7

L

7 P/ftnjjLs

Richard Hollihan Jr.,AJ-0676•Pro Se
1600 Walters Mill Road

BB-34

Somerset, Pennsylvania

15510
4.

